  Department of Health and Human Servces
          OFFICE OF

     INSPECTOR GENERAL





 THE FAMILY SUPPORT ACT OF 1988:

WHAT DO FRONT- LINE WORKERS KNOW?

       WHAT DO THEY THINK?





              .. sH. Vlq'


                            Richard P. Kusserow
                            INSPECfOR GENERAL
        '0


             .tltd30            OEI-05-89-01220
              EXECUTIVE SUMMAR 

PUROSE
To determine the knowledge ,attitude and degree of acceptance by front- line workers
and their immediate supervsors of the Family Support Act of 1988.


BACKGROUN
The Family Support Act (the Act) was a comprehensive restructuring of the welfare
system to reduce long- term dependency on welfare programs. The centerpiece of the
Act is the Job Opportunities and Basic Skills Training (JOBS) program , which
provides Aid to Familes with Dependent Children (AFDC) familes with the
opportunity to take part in educational activities , training programs or job activities.
The Act strengthens the child support program and provides supportive servces and
transitional benefits for current and former AFDC clients. Front- line workers , who
are usually the first who deal with the potential JOBS participants , play an important
role in the new environment. More than half currently refer clients to other servces.
Therefore , the better they understand the new benefits and requirements of the Act
the more effectively they can make referrals. Furthermore , whether they refer clients
or not , the knowledge and attitude of front-line workers about the Act can influence
the way they present this new program to AFDC clients.

METHODOLOY
We surveyed front- line workers and their immediate supervsors by drawing a random
sample of 30 counties weighted on the amount of Federal AFDC funding each
received in 1988. We sent out 3 861 questionnaires and received 2 118 responses.

FIINGS
       Only one- thid of front- line workers and supervsors report they are " familiar
       or "very familar" with the specific provisions of the Act.

       Overwhelmingly, front- line workers and supervsors believe the Act will increase
       client self-sufficiency.



       Front- line workers and supervsors who know about the Act s specific provisions
       are even more likely to believe it will increase client self-sufficiency.

       An inverse correlation exists between the knowledge and burnout of front- line
       workers and supervsors.
AGENCY    COMM
We wish to thank both the Administration for Children and Families and the Assistant
Secretary for Planning and Evaluation for commenting on the draft report. Both were
concerned with the reported low level of program familiarity among staff. Their
comments identify some potential reasons why this may have been so during the time
our survey was conducted. We will be conducting a follow-up survey on front- line
workers ' familiarity with the Act that will be compared to our baseline data. The
complete text of agency comments can be found in Appendix F. Our response to
these comments is contained on page 10.
                                             ....................                                                             . ...                                            . . . . . ...,
                                 . . . . . . . .. .. ... ... ... ... .............................."................................... ... ... .. ................. ... .. ... ... .. .. .. .. . ..




                                    TABLE OF CONTENTS

                                                                                                                                                                                         PAGE

EXCU SUMY

INODUCfON .
FININGS

  On one-thid                          supervors report
                                       of front-lie workers and
  they are "famar" or "very famar" with the specic
  proviions of the Act. ...........................................                                                                                                                                    5


  Overwhelmgl, front-lie workers and supervors
  believe the Act wi increase client self-sufciency.                                                                                        ..................7

  Front-lie                workers and supervors who know about
  the Act'           s    specic provions are even more liely
  to believe it wi increas client self-sufciency . . . . . . . . . . . . . . . . . . . . . . . . . 9

  An inverse correlation exits between the
  knowledge and burout of front-lie workers                                                                      and supervors.                          ..............9

  Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

  OIG Response. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

APPENDICI
  Fam Support Act Questionnaie                                                            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A­

  Collectg the Data
                                                                                                                   . . . . . . . . . . . . . . . . .. B-

  Creatig Binar Varables                                                                                                                                                               . .. C-



  Analis. .                                                                                                                                      . . . . . . . . . . . . . . . D­

  Burnout Inventory Analis                                                                                                                                                                 .. E-



  Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                                                                 . . . . . . . . ., F-
                         INTRODUCTION

PUROSE
To determine the knowledge ,   attitude and degree of acceptance by front- line workers
and their immediate supervsors of the Family Support Act of 1988.

BACKGROUN
The Family Support Act (the Act) was a comprehensive restructuring of the welfare
system to reduce long- term dependency on welfare programs. The centerpiece of the
Act is the Job Opportunities and Basic Skills Training (JOBS) program , which
provides Aid to Families with Dependent Children (AFDC) familes with the
opportunity to take part in educational activities , training programs or job activities.
The Act strengthens the child support enforcement program and reimburses
participants for child care and transportation servces during JOBS. The Act also
requires transitional child care and Medicaid benefits to ease client s transition from
welfare to the work force. Many AFDC recipients will have to participate in the
JOBS program to receive their full AFDC cash grant.

The AFDC program (Title IV- A of the Social Security Act) is a cash assistance
program begun in August 1935. It provides aid to familes with children who are
deprived of parental support or care because of the death , disability, unemployment or
continued absence of a parent from the home. The State IV- A agencies , through local
welfare offices , administer the AFDC program. Many States have a staff separate
from the AFDC program that admister the JOBS program.

Whether the AFDC and JOBS program are administered by the same or separate
staff, it is usually the front- line worker of the AFDC program that first deals with the
potential JOBS client. The structure of welfare offces varies by State and county, so
that front- line workers ' responsibilties vary. However , since front- line workers
administer the AFDC program , they have routine contact with welfare clients during
initial AFDC eligibilty determinations and/or periodic redeterminations for AFDC
benefits.

In addition to administering the AFDC program , front-line workers also disseminate
information about other Federal programs such as Food Stamps , Medicaid and Child
Support Enforcement. They may take applications and determine eligibility for Food
Stamps and Medicaid as well.

Front- line workers provide one link between welfare clients and both the JOBS
program and the child support agency. The degree of involvement front-line workers
and supervsors have with the child support agency varies since generally a separate
agency admsters that program. However , the AFDC and child support programs
often have the same clients. In some offces , front-line workers must advise AFDC
clients of child support benefits , take preliminary child support information , and refer
clients to the chid support agency. Also , front- line workers can make critical decisions
about which clients are referred to the JOBS program and sanction those not meeting
JOBS participation requirements.

Because of their contact with welfare clients , front- line workers can provide
information and referral for clients who need additional servces beyond their cash
grant. Front- line workers might use their knowledge of the Act to assist
                                                                             clients with
information about the Act' s provisions. For example , durig an intervew to
redetermine AFDC eligibilty, a welfare client may indicate they have , on their own
applied for a job but are worred about accepting the job because of the expense and
lack of child care. The front- line worker could make a referral either to the JOBS
program or another appropriate program to assist this client.

Furthermore , the knowledge and attitude of the front-line workers about the Act can
infuence the way they present the new program to AFDC clients. Their confidence
enthusiasm , and optimism might subtly affect the clients ' receptivity to the JOBS
program. Their knowledge of the Act and its intent might give them a better
understanding of the clients ' situations and affect the way they treat their clients.

The role of front- line workers is an evolvig one. In the 1960' , these workers
functioned more as social workers who worked closely with clients to meet their needs.
More recently, the role of the front- line worker was separated from the social servce
components of welfare , leavig front- line workers more as administrative offcers.
This resulted in minimal worker and client interaction. ! As a result of the Act , with
its emphasis on developing client self-suffciency, the role of the front- line worker is
being re-examined.




METHODOLOY
Collctig th Data


We drew a random sample of 30 counties weighted on the amount of Federal AFDC
funding received in 1988. Within these counties , we sent surveys to 3 861 front- line
workers and their immediate supervsors. The respondents work in 72 different


          Deite th shift evide gathed          in tWo stdies     sugg thlhe workes contied to provid some lTadonal social
serices to c/iem such as information   , referal and advocacy.     (1) U)er, Norm L 1980. Whtever happend to the income

mainenance lin worke? Social Work 25 (Jul): 259- 263; an            (2)   uy, Norm L         1983.   Income maintene worke an social
work: A broke tie. Social Work 28 (JullAugut): 261- 268.

   2 The 30 counes included in the samle were from th fol/owing States: California, Conncticur, Georgia, flinis, Iowa,
KentUcky, Louisan Main Marlan Minora, Misour NIM Jerey, Ohio                           , Oklma Penlvania Uta Viria, Washigton
an WISCOnsin
welfare offces located in 19 States. We mailed the surveys on December 3 , 1990.
Data was collected in the fist quarter of calendar year 1991. Out of the 3 861
possible respondents , 55 percent , or 2 118 , responded. Appendix A contains the
Family Support Act questionnaire. Appendix B contains details on our sampling
procedure , criteria to be a respondent and sampled counties.


Anlysi
We analyzed respondents ' familarity with provisions of the Act , their attitudes about
the Act , their attitudes about the affect of the Act on the welfare system , and their
level of burnout according to the Gilespie- Numerof Burnout Inventory (GNBI).

Using the statistical softare package PC SAS , we analyzed the data with frequencies
crosstabulations , and multivariate logistic regression. The report presents results of an
unweighted analysis. Appendices C , D and E contain a detailed description of our
statistical methods.


REPONDEN CHCfRISTCS
Front- line workers and supervsors report that they:

                work in 72 diferent welfare offces. These offces                          are located in 30
                counties in 19 States;



                have attended college. Fifeen percent have post-graduate experience

                30 percent have a 4 year college degree , 14 percent have a 2 year
                college degree , 28 percent have some college experience , and only 13
                percent have not attended college;

                are experienced. Twenty-seven                   percent have 11 or more years
                experience on the job , 23 percent have 6 to 10 years of experience , 31
                percent have 2 to 5 years experience , and 19 percent have 1 year or less
                job experience;



                              , not specialists. Only 29 percent spend over half of their
                are generalists
                work time in the AFDC program , and 71 percent spend half or less of
                their time working in the AFDC program;

                refer clients to other programs. Six- four percent of respondents report
                they regularly refer clients to at least one of the following: the child



       Capygl   1983.   Dr. David F. Gillesie   an Dr. Rita E. Numeraf Refer to appen E for deails on the GNBL
support agency, an education program, a training program , a job search
a child care program , or community organizations;

are line workers. Only 13 percent are supervsors;

work in both State and county-administered offices. Fifty-six percent
work in State administered offces , and 44 percent in county
administered offices; and

work in and around cities. Ninety- four percent work in urban offices
and 6 percent work in rural offces.
                                              FINDINGS

ONLY ONE-             THAROF"FAM"
                             FRONT-LIN WORKRS AN SUPERVISORS
                                     OR liVERY FAM" wr TH
REPORT THY
SPECIFIC PROVISIONS OF TH ACT.

When rating respondents ' knowledge of 21 specific Act provisions , only 33 percent
                                                      " 4 This percentage varies
average a response of " familiar " or "very familiar.
depending on the specific provision. For example , by excluding the child support
provisions , 43 percent of the respondents average a response of " familar " or "very
familiar " for all other Act provisions.

Respondents ' knowledge of the child support provisions is low compared to knowledge
of other Act provisions. For example , 66. 2 percent of the respondents know about the
transitional Medicaid benefit but only 20. 7 percent of the respondents know about
immediate wage withholding for new and updated child support orders. Although half
of the respondents make regular child support referrals , only 21.8 percent of these
know about this specific provision.

If front- line workers and supervsors who regularly make client referrals know little
about specific Act provisions , their effectiveness in informing clients about available
services may be lessened. It may even be that welfare clients targeted for help may
not receive timely notification of Act servces and lose valuable tools such as child care
and job training to achieve self-sufficiency.

Chart 1 shows respondents '  knowledge of specific Act provisions. The first column
lists the provisions included in our questionnaire. The second column shows the
percentage of all respondents who report they are " familiar " or "very familar " with
each provision.

Columns A- H     compare the knowledge of the following four pairs of respondents:
workers versus supervsors , respondents from State-run offices versus county-run
offices , urban respondents versus rural respondents , and respondents who spend over
half of their work time in AFDC versus those who spend half or less of their work
time in AFDC. The 
    .Is indicate that respondents in that group are at least 1.5 times
(rounded to the nearest half) more likely to know about a specific provision than their
paired group. The comparisons are made within a pair , not between pairs. For
example , looking at columns A and B , for 16 of the 21 Act provisions , supervsors are
more likely to know about the Act's provisions than workers. Where there is no check
mark in either column, both groups are equally likely to know about the provisions.



            For the remairn of the report we refer 10 th   respondmLS ' reported   familarty as knwledge. We did not   inpetly
 verfy thir knwledge levels. See appen      for details
              . . .. ....... ...............
                                        ....... ....
                                       ..    .... ..   . "" ' . .'""...........
                                                         ....              ....
                                                                         ...   ....
                                                                               .",...
                                                                                  ...
                                                                             , ....               ..
                                                                                   ,............,.........
                                                                                       . ....". .......
                                                                              .. .. . ...........
                                                                          .. ..                   "".   ........
                                                                                                       .....
                                                                                                         ...
                                                                                                      ........
                                                                                                    ......
                                                                                                        ....            .....,.....'""......
                                                                                                               .....'"...
                                                                                                           ... .........
                                                                                                        ..'.. '".."',..
                                                                                                    . ..'              ..
                                                                                                                       ....
                                                                                                                    . . ......
                                                                                                                          ,. .,"
                                                                                                                               .. .....
                                                                                                                                  .' '/,/ . ......
                                                                                                                                            ....
                                                                                                                                       .........
                                                                                                                                             ."
                                                                                                                                     ..,/'/.'/ ...  ....
                                                                                                                                                   ..
                                                                                                                                                . ..         .......,"
                                                                                                                                                     ....,....
                                                                                                                                              ............
                                                                                                                                                    ....    ...   .'....
                                                                                                                                                             ..........,....
                                                                                                                                                                        '"
                                                                                                                                                                    ....... '" " ..
                                                                                                                                                                        . ,.....
                                                                                                                                                                              .......
                                                                                                                                                                              ......
                                                                                                                                                                                  ......
                                                                                                                                                                 .. . ... '/'/.. . "'"
                                                                                                                                                                                   .      .,...
                                                                                                                                                                                       "' .....
                                                                                                                                                                                   ","".....   ' .
                                                                                                                                                                                             " ''''     .." ..
                                                                                                                                                                                                    .........
                                                                                                                                                                                                       .'"''
                                                                                                                                                                                       ,. ..... ,/.,/ . . ..         ...
                                                                                                                                                                                                             .,.' ...... " , ..
                                                                                                                                                                                                                   ........
                                                                                                                                                                                                                     ........




       REPONDEN' KNOWLE OF TH FAMY                                                                                                                    SUPPORT ACf
Ch
           FAM Y SUPORT ACf PROVION                                                                 KNOW

Periodic adequacy review of child support orders

1994 JOBS participation rates                                                                       18. 2%

Mandatory guidelines for support orders                                                             19.

Immediate wage withholding on new & updted orders                                                   20.

199 JOBS participation rates                                                                        21.9%



Paternity establishment standards                                                                   245%

No los of income because of          accepting a job                                                37.

Development of employabilty plan                                                                    40. 9%

Up to 12 months of child care for JOBS participants                                                  41.0%



Required asment of client needs                                                                      45. 2%

JOBS targeting of long-time AFC recipients                                                           453%



Transitional chid care for up to 12 months                                                           51. %

JOBS targeting of recipients without high school diploma                                             51.5%
or with little work exprience

Referral of new     ca to child support agency                                                       54. 8%
within 10 days


JOBS targeting of categories of welfare clients                                                       56.9%

JOBS targeting of young parents                                                                       57. 9%

AFC grant reduction for failure to meet                                                               59. 6%
JOBS participation requirements

Exemption from JOBS participation in certin                                                           64.5%



Transitional Medicaid for up to 12 months                                                             66.2%

Required participation in education , training                                                        66.2%
and job activties
 Reimbursement for child care , transporttion , and work                                               69. 2%
 related expns for JOBS participants



                                                KEFOR .qoLONS..                                                  J=IJ:
     A-FRON.;INEWORKER                      c.ATE       ONOFFiCI; .                                                  NOFFI                                 G;?                      bf'n              E'INAFDC
     B-UPER!SOR                             O:CQONT"AUNOFFI . FAOLQFFI                                                                                                                  OfllMEI AFbC .


     ;,.rndfcat&s that resp6ndents . 'n. .1I. destgr1         .gfo       re.at.                   Ut1:             tJm $(t6Jric1                   ator1eEUe$half.. trrelikely
     know about a &pecifprovisiohthantheir                    (jl'erpart:s.
OVEWHGLY, FRONT-LI WORK AN SUPERVIRS
BELVE TH ACf Wl INCRE                                        CL SEL-SUFCICY.
Despite varyng levels of knowledge about specific provisions , when calculating an
average score for the provisions in Chart 2, 85 percent of front- line workers and
supervsors feel that many of the Act provisions encourage client self-suffciency.
The 85 percent score represents those respondents who on average , answered " greatly
                                  ll in response to the questions about how the Act will
increase " or " somewhat increase
affect client self-suffciency.



This percentage varies depending on the specific Act provision. Chart 2 includes the
percentage of respondents who think specific provisions will increase client
self-suffciency.

                             HOW      WI TI FAMY SUPPORT ACT
Chrt 2

                                AFCT         CL SEL-SUFCICY?
                            Proion                                                    wh       th it wi increa
                                                                                        client self-suffciency

  12 months transitional Medicaid

  12 months transitional child care
  Reimbursement of child care, transportation and work
  related expenses when in JOBS
  Required participation in education , training or job
  activities
  Employabilty plan based on client assessment
  Assessment of client needs
  Immediate wage withholding for all new support
  orders
  Mandatory State guidelines to determine amount of
  support orders


  Cae management 6


  Periodic adequacy review of -all AFC          support orders

  Requirement for genetic blood testing




   5 We di not ask resondts this question about all of th   provisions of the Act dicused in Finding       1, only the 11   lirted in the
char
   6 Case   maget was recommended, but not required by       th Act Sine      17y    SUItes   an counties practice some form of case
manafPent in implemtig th Act, we inlud this quesOTL
             ==



In Chart 3 ,     we show how respondents , over time , rate how the Act affects the welfare
system in the following areas:                  providing adequate servces to clients , providing timely
servces to clients , improving client self-suffciency, permitting you (front- line workers
and supervsors) to help your clients , not wasting the taxayers ' money, and improving
your job satisfaction.

Chart 3 shows that respondents think the Act will positively impact the welfare system
in the areas listed above. Using an average score for the 6 areas , 43 percent of
respondents thin the welfare system wil be " good" or ' 'very good" 2 years from now.
Only 14 percent thought this was true when asked how the welfare system performed
2 years ago.



  Chart 3





                         FS ACT AFFECT ON THE WELFARE SYSTEM
                   100              WILL THE SYSTEM IMPROVE OVER TIME?


             u.                                                                                                   Area Raed

             fa                                                                                                  Aduate Servce
                                                                                                       - TI
             CD                                                                                       11111111   Se-Sufenc
             S!                                                                                                  Perit yo to hep

                                                                                                       ........ Job saUsfactn

                                                                                                                 Not wasng ta $




             a:
                                     YES                       NOW                       YES
                                     AGO                                             FROM




   7 For this avera      score, a response of "good" or "ver   good'   incat a favorable resonse an a resnse of ' 'fail    'poor '' or " ver
poor"   incates a negatve resonse.
FRONT-LI       WORKRS AN SUPERVISORS WHO KNOW ABOUT
ACf SPECIC PROVISIONS AR EVEN MORE LILY TO BELIVE IT
WI INCRE CLNT SELF-SUFCINCY.
Respondents are twce as likely to believe the Act will increase client self-sufficiency if
they know about the provisions. As respondents ' level of knowledge increases , their
support for the Act increases. The vast majority of respondents think the Act will
increase client self-sufficiency. The relationship between knowledge and attitude
suggests that the number of respondents who support the Act could grow even larger
if more respondents knew about the provisions of the Act. This is important whether
or not a front- line worker or supervsor makes client referrals since it may affect the
presentation of the Act's provisions to clients.

The relationship between knowledge and attitude is strongest for transitional benefits.
Respondents who know about transitional Medicaid are four times more likely to
believe it will increase self-sufficiency. Respondents who know about transitional child
care are three times more likely to believe it will increase client self-sufficiency.

Respondents who know about the child support provisions , the required education
training or job activities , an employability plan and the supportive servces are twce
likely to think those provisions will increase client self-sufficiency.

AN INRSE CORRLATION EXIST BETWEN TH KNOWLDGE
BUROUT OF FRONT-LIN WORKRS AN SUPERVISORS.
A respondent s level of knowledge has a statistically significant inverse correlation with
burnout of an individual. As respondents ' knowledge increases , their chances of being
burned out decrease.

Only knowledge has a significant relationship with an individual' s burnout level. No
other variable we tested relates to the burnout of a respondent. The following factors
as related to burnout , are insignificant: whether respondents are supervsors or
workers , whether respondents work in urban or rural offices, whether respondents
work in State-administered or county-administered offices , and whether respondents
spend greater than 50 percent of their time working in the AFDC program or less
time working in the AFC program.

AGENCY COMMNT

Both the Assistant Secretary for Planning and Evaluation (ASPE) and the
Administration for Children and Families (ACF) commented on the report. Both
were concerned about the reported low level of program familiarity with the Act.
They suggested that the timing of the survey, along with the tye of respondents we
included in the sample , may have influenced the reported degree of familarity with
the Act.

OIG REPONSE

We do recognize that not all States in the sample had the same or comparable
experience with implementing and administering the Act. But, our objective was to
collect baseline data that could then be compared to data collected at a later point
time.

Both ASPE and ACF suspect that the low level of familiarity with the Act could , in
part , be explained by the varied job responsibilties of the sampled respondents. The
ASPE states that some front-line workers might be expected to provide clients with
information about the JOBS program , while others may be solely responsible for
income maintenance functions with the expectation that they will refer clients to JOBS
and child support enforcement to learn about these programs.



Undoubtedly, the respondents in the survey had varied duties and responsibilties as
far as implementing and administering the Act' s provisions. However , as stated in the
report , we believe that front- line workers , who are usually the first to deal with
potential JOBS participants , can playa critical role in shaping recipients ' attitudes
about JOBS and child support programs. The better they understand the new benefits
and requirements of the Act , the more effectively they can present the program to
clients.

We will conduct a follow-up study that will resurvey respondents in order to measure
any change in their familarity with the Act. As they have requested , we will work
with ACF and ASPE in designing this study.
    APPENDIX A

FAMY SUPPORT   ACf   QUETIONNAI
                                      ..
      Family support Act Questlonn."'.




      First we want to know to what extent you have been acquainted with the law. Please
      respond to th..e .tatement. by circling the number that repr..ent. your familarity with
      the following. U.. the following scale.


                                     Very                  Somewhat       Not     Not at all
                                   Familar      Familiar    Familar      Sure      Familiar


                                            Circle a number                                        Circle a number
      Immediate wage with.
      holding for all new                                          Q12 Exemption from partici­
      child support order.                                               pation in certin cases
      Mandatory State                                              Q13 Targeting categories of
      guidelines to                                                     welfare recipients for
      determine the amount                                              the JOBS program
      of child support orders
                                                                   Q14 Targeting of young
      Three year adequacy                                               parents for the
      review of all AFDC                                                JOBS program
      support orders
                                                                   Q15 Targeting of non- diploma
      Federal standards to                                             custodial parents under
      establish paternity                                               age 24 who have
                                                                        no work experience
      Requirement for AFDC                                              for the JOBS program
      staff to refer potential
      child support cases within                                   Q16 Targeting of famme. who
      10 days of receipt to the                                         received AFDC three
      child support agency                                              of the la.t fie   year.
      AFDC famile.                                                 Q17 Mandatory partcipation
      are assured                                                      in .aving. plan
      education,
      training, or                                                 Q18 The required assess­
      employment                                                        ment of client needs
      AFDC benefits wil be
      reduced if Job                                               Q19 The requirement to
                                                                       devllop an Imploya­

      Opportunity and Basic                                             bilty plan for JOBS
      Skils (JOBS) program                                              partcipants
      partcipants fail to
      fulfil their JOBS                                            Q20 A wllfarl family must
      program obligation.'"                                            not lOll incoml because
                                                                        of Job acceptance
      Partcipants in JOBS will
      be reimbursld for child                                   Q21 The requirement for the
      care, transportation, and                                         development of a family
      work related Ixpenses                                             budgeting plan


      JOBS partcipants are                                      Q22 Up to 12 months of
      required to partcipate                                            child care is guaranteed
      in educational, training,                                         for participation in
      or job actlviti..
                                                                        JOBS
QlO   7% of eligible AFDC
      clients must be                                           Q23 Up to 12 months of
                                                                        child care is guaranteed
      partcipating In JOBS                                              after loss of AFDC
      in 1990                                                           lligibllity due to
                                                                        acceptance of a job
Qll   20% of eligible AFDC
      clients mUlt bl                                           Q24 Up to 12 month. of
      partcipating in                                                   Medicaid benefits are
      JOBS in 1995                                                      guaranteed for families
                                                                        of clients after loss of
                                                                        AFDC eligibility due to
      .. Your State or      county may call thl. welfare.to-work        acceptance of a job
      program by another name. In thl. que.tlonnalre,
      however, we wil reter to It JOBS, the Federal
      de.lgnatlon.




                                                               A­
                   g.,g., --------------------------
                            ---------------------
     ---------------------------------------------
     -----------------------------------------
     ------------------     --------------------
     Family SUPPQrt Act Questionnaire




     How much Information. have you received                 What effect do you think the child support
     from each of the following sources                      provisions wil have on the self-sufficiency
     regarding the Family Support Act?                       of your clients?
     Use the following scale.                                Use the following scale.

               Gre81              Not                        Gre.tly     Somewhat                 Somewhat      Greatly
             Deal        Some     Much     None              Incre..e Incre..e           Effect    Decreale   Decrease

                                      Circle a number                                              Circle anum ber
                                                        Q38 Adequacy review of all
Q26 Conversations at work                                    AFOC support orders
    Media (e. g., ne
Q27 papers,                                             Q39 Immediate wage with-
            magazlnel,                                       holding for all new
     TV or radio)                                            child lupport orders
    Official sources (e.
Q28 training, memoranda,
                                                        040 lines
                                                            Mandatory State guide.
                                                                  to determine
     newsletters)                                            amount of child
                                                             support orders

Q29 Organizations (e.
     American Public Welfare                            041 Requirement   for genetic
     Association, National                                  blood testing
     Eligibility Workers Asso­
     ciation, etc.

Q30 Other
                                                             How wil the following parts of the JOBS
             (pleue specif):
                                                             program effect client self- sufficiency?
                                                             Use the following scale.

                                                              Ore.tly    Somewhat          No Somewhat          Greatly
                                                              Incre..e       Incre..e    Effect Decr....       Decrease
     Which of the following do you think helps
     define self-sufficiency?                                                                     Circle a number
     (CHECK ALL THAT APPLY)                             042 education,
                                                            Required participation in
                                                                       training, or
                                                             employment activities
Q31 getting and keeping a job above
     the minimum wage level                             043 Assessment of client
                                                            needs
Q32 life skils
Q33 responsibilty for children assumed                  Q4 on
                                                           Employabilit plan based
                                                              client assnsment
     by both parents
                                                        045 C..e management
Q34 literacy
                                                        046 care,
                                                            Reimbursement of child
Q35 education up to high-school                                   transportation and
     level                                                    work related expenses
                                                              when participating in
Q36 advanced education                                        the JOBS program
      (above high school level)
Q37 other (please specif)                               047 toReimbursement  of up
                                                                12 months of child care
                                                              aftr 1088 of   AFDC as a
                                                              relult of accepting a job
                                                        Q4 12 month Medicaid
                                                              exten.ion aftr 1088

                                                              of AFDC u a result
                                                              of accepting a job




                                                          A­
      Family Support Act Questionnaire


      How wen do you think the following items measure the help provided to welfare clients by
      the Family Support Act?
                                     Very        Pretty                    Not Too        Very
                                     Good        Good           Not        Good A           Poor
                                     Me..ure      Me..ure       Sur.       M...ur.        Mea.ur.

                                     Circle a number
      Child suppo                                                                                   Circle I number
                                                                Chld cae
      Number of AFDC
Q50   terminations                                        064   Number of children
      due to receipt of                                         covered by child
      child support                                             care benefits

Q51   Number of child                                     065   Number of parents
      support orders
                                           who can partcipate
                                                                in a training or educa.
Q52   Number of paternites                                      tion program because
      established                                               of the child care benefit

Q53   Dollar amount of child                              066   Number of parents who
      support collections on                                    can accept a job
      AFDC cases                                                because of the
                                                                child care benefit
      Increase in child
Q54   support enforcement
      collections
                                                                Transpotion and wor relaed expeses
                                                          067   Number of users of
      JOBS                                                      transportation benefit



Q55   Client participation rates 1                        !Q8   Number of parents who
                                                                can participate in an
Q56   Completion of education                                   educational or training
      or training program                                       program because of
                                                                the new transportation
Q57   Completion of a full                                      benefit
      assessment
                                                          069   Dollar amount paid
Q58   Regular attendance                                        for transporttion
      in a program
                                                          Q70   Dollar amount paid for
Q59   Number of job                                             work related expenses
      placements
060   Average wage at
      placement upon
      entrance into a job
                                                                 Meicid
                                                          Q71    Dollar amount paid
061   Number of clients                                         by Medicaid for 12
      removed from the                                          month extended

      welfare rolls                                             benefits
062   Receipt of educational                                    Number of parents
      degree                                                    who can accept a
                                                                job because of the
063   Increase in literacy level                                 Medicaid extension





                                                          A­
                        _--------------------­

      --------------------------------------------

      Family Support Act Questionnaire


      Estimate the effect the Family Support Act                Using the scale below, estimate how often
      wil have on your duties.                                  your office currently provides the
                                                                following services to clients.
      Gre.tly Somewh.t                 Somewh.t Gre.tly
      Incre... Incre..e       Effect   Decre..e Decre..e           A Gre.t                 Not
                                                                    D..I        Some       Much       None


                                       Circle. number                                         Circle a number
      Child suppo provisions                               084 Education referrals
Q74   Case related
      paperwork
                                                           085 Training referrals
Q75   Contact with clients                                sQ86 Employment referral.
Q76   Contact with other                                   087 Alleaament
                                                               needa
                                                                          of client
      agencies
                                                           088 Development of an
                                                                 employabilty pl.n
      JOBS   provi                                         089 child
                                                               Reimbursement for
                                                                     care expenses
Q77   Case related
      paperwork                                           5Q90 Reimbursement for
                                                                 tranaportation expenses
Q78   Contact wit clients
      Contact with other
                                                           Q91 work
                                                               Reimbursement for
                                                                    related expenses
Q79
      agencl..


      Family Suppo Act as a whole

080   Case rel.ted
      paperwork

081   Contact wit clients

082   Contact wit other
      agencies
Q83   Other (plu.e specif):




                                                              A­
                                                                        ----------------------------  -------
                                                                                                     --------
                                                                                                     ---------
                                                                                     ___--------------------
                                                                        ---------------------------------  ---

       FamilY suppon Act Questionnaire


       Congrell Intended &0              overhaul the welfare            Not wa.tlng the taxpayer. ' money
       system with the pa..a                of the Family 105'
                                 like to know how                        Prior to the Family
       weGPort   Act. We
           I you think     woul
                       It wil accomplish this.                           Support Act
       P lease compare the following welfare                             (2 yurs ago)
       systems;
                                                                QI06     Today
            1) before the Family Support Act

            (at least two years ago);                           QI07     Two years from now

            2) while     the Famn
            being ImplementeJISupport
                              and;    Act Is                             improving your Job .atl.factlon

                 two years from now                             QI08     Prior to the Family
                                                                         Support Act
                                                                         (2 yurs ago)
       Very Good      Good        Fair        Poor   Very Poo           Today
                                                                :109
                                                                QllO    Two years from now

                                           Circle a number

       Providing adequa. .ervlc..    to client.
                                                                        Approximately what percentage of your
Q93    Prior to the Family                                              work time Is spent on the following
       Support Act                                                      programs? (TOTAL MUST EQUAL 100%)
       (2 yurs ago)

Q94    Today                                                    sQlll Food    stamps '"
095    Two years from now                                       sQ1l2 AFOC 


                                                                 Q1l3 Medicaid '"
       Providing timely .erlc..   to cliets
                                                                 Ql14   General assistance %

Q96    Prior to the Family
       Support Act                                               Q1l5 Other      %
       (2 yurs ago)                                                1l6 (pluse specify):
Q97    Today

Q98    Two yura from now
                                                                 Q1l7   TOTAL 100'"

       1m proving c let .e/f..u1tlency



Q99    Prior to the Family
       Support Act                                                      Approximately what percentage of your
       (2 yurs ago)                                                     work time Is spent in the following Job
                                                                        duties?      (TOTAL MUST EQUAL       100%)
Q100 Today
QIOl Two years from now                                         sOl18 Initial client intake '"
                                                                Ql19    Ongoing cas.. %
       Permitng you to help   your cliets
                                                                Q120 Supervision '"
QI02   Prior to the Family
       Support
       (2 yurs ago)
                                                                Q121 Other'" 

                                                                   122 (please specify):
Q103 Today
Q104 Two years from now                                                 TOTAL 100'"
                                                                Q123




                                                                A­
       ------------------------------
                                   -------
                     ---------------------
       ------------------------------------
                                   --------
                                   ---------

       Family Support Act Questionnaire


       Approximately what percentage of your            About how often do you refer clients for
       work time Iss   nt In each of tne activities     the following services?
       listed below? (TOTAL MUST eaUAL 100%)
                                                        Every                                      Le.. Than
                                                           Day          W..kly   Monthly V..rly    Once a Year
Q125 Time with clients %

Q126 Case related paperwork %                                                             Clrcl. anum ber
Q127 Administrative duties %                      Q147 Child support
Q128 Client Assessment %                          Ql48 Education programs
Q129 Training %                                   Q149 Training programs
Q130 Contact with other agencies %                Q150 Job surch
Q131 Contact with employers and
     others related to cases %                    Q151 Child care

Q132 Supervision %                                Q152 Community

                                                        organizations
Q133 Other %
Q134 (please specify):
                                                        At your present skil level, how much
                                                        confidence do you feel in assessing the
                                                        capabilties of clients for referral to any of
                                                        the following?
Q135   TOTAL 100%

                                                                 A Great                   Not
                                                                 O.a'        Some          Much         None




       100%)
       To do a better lob, what percentage of your.
       time at work should you spend in the Q153 An education program
       following areas? (TOTAL MUST EaUAL


Q136 Time with clients %
                                                  Q154 A training program
                                                  Q155 A job
                                                  Q156 Child care
Q137 Case related paperwork %
Ql38 Administrativ. duties %
Ql39 Client Assessment %                                About how often do you evaluate clients
                                                        for the following services?
Ql40 Training %
                                                                 A Gr.at                    Not
Q141 Contact wit other agencies                                  O.a'        Some           Much         None
Q142 Contact with employers and
       others related to cases %
                                                  Q157 An education program
Q143 Supervision %
                                                  Q158 A training program
Ql44 Other    %
                                                  Q159 A job
Q145 (please specify):
                                                  Q160 Child care



Q146
       TOTAL 100%




                                                      A­
       Family Support Act Questionnaire


       How much Flmlly s.uPgort Act training do                SUPERVISORS ONLY: How much Family
       you need In tlch Irea elow?                             SUPlort Act training do your eligibilty
                                                               wor er. need In each area below?
                                      Adequate    Don                                       Adequate   Don
                               Not    Training Need Thla                               Not  Training  Need Thla
       Extenalve       Some    Much   Received For My Job      Extenalve      Some     Much Received For Their Job


                                                                                               Circle a number
                                      Circle a number
                                                        Q173 Immediate wage
       Immediate wage                                          withholding
Q162
       withholding
                                                        Q174 Mandatory State
Q163   Mandatory State                                         guideline.
       guidelines
                                                        Q175 Review of all .upport
       Review of all support                                   order.
Q164   orders
                                                        Q176 Paternity establishment
       Paternity establishment                                 and genetic blood
Q165                                                           testing
       and genetic blood
       testing
                                                        Q177 Education, training,
Q166   Education, training,                                    employment activities
       employment actiities
                                                        Q178 Client need.
Q167   Client need.                                            aueument
       a..eument
                                                        Q179 Development of
       Development of                                          employabilty plan

Q168
       employabilty plan
                                                        Q180   C..e management
Q169   Case management
                                                        Q181   Child care benefits
Q170   Child care benefits
                                                        Q182 Transporttion benefits
Ql71   Transporttion benefits
                                                        Q183 Medicaid benefits
Ql72   Medicaid benefi




                                                        Ql84 Do you think your job Is important to the
                                                               .ucc... of       the Family Support Act?

                                                                         yes ----         no ---­





                                                        A­
                                        -,­



     Family Support Act Questionnaire


     How much education have you received on the following topics? (CIRCLE ALL THAT APPLY)

                                                  Non.                  Forl         Inforl
                                     College      College        Wor    In- House   In- House
                                     Course       Course         Shop   Training    Training     None

                                       186        187            188    189         190         191
     Juvenile delinquency
                                       192        193            194    195         196         197
     Teen pregnancy
                                       198        199            200    201         202         203
     Adolescent developnt
                                       204        205            206    207         208         209
     Adolescent psycholog
                                       210        211            212    213         214         215
     Substance abuse
                                       216        217            218    219         220         221
     Employment services

                                       222        223            224    225         226         227
     Training services
                                       228        229            230    231         232         233
     Parentng
                                       234        235            236    237         238         239
     Early- childhoo    developnt
                                       240        241            242    243         244         245
     Case management

                                        246       247            248    249         250         251
     Evaluation of dlents
                                        252       253            254    255         256         257
     Literacy testing


Q258 What Is your current job title? (pLEASE DO NOT ABBREVIATE OR USE ACRONYMS)




Q259 How many years have you held your current job or have been perorming the same work?
     Totl years


     (If you have ever been a supervisor give the number of years)

Q260 Supervisor




                                                            A­
       Family Support Act Questionnaire


       Check the bo    by yor highest level of forl   education and wre In your major;


Q262 Docorl degree                       major
Q263 Masters degree                      major
Q264 Som graduate scoo                   major
Q265 4- year colege degree               major
Q266 2- year colege degree               major
Q267 Som colege
Q268 High schoo diplom (or equivalent)
Q269 Less than high schoo

       Please circle the number which comes closest to the way you act or feel about your current job.


                                                         Never        Sometimes          Always
Q270 I' m fed up with the job.
Q271 I feel crbby at wor.
Q272 I feel that everyhing Is caving In at wor.

Q273 I feel enthusiastic abo my      wor.
Q274 I feel unable to get ou fro under my work.

Q275 I' m discorage abo my wor.
Q276 Lite things don t bug me.
Q277 I feel burled In my Job.

Q278 I feel like givng up on the job.

Q279 I' m   disillusion wit my wor.

Q280 My job makes me angry.
Q281 I loo    fOlrd to cong back to
       wor when    I leave. 




Q282   My job has me at th      end of my rop.




                                                         A­
       ------------------------------------------------------------------------------
       -----------------------------------------------------------------------
       ------------------------------------------------------------------- --------
                                                                                ---- ---
       ---------------------------------------------------------------------------
       -----------------------------------------------------------------------       ---
                                                                                   ---
                                                                               -------


       Family Support Act Questionnaire


       We lollclt yourcommentl. The Family   Support Act illntended to   improve client lelf-sufficiency.
Q284
       What elll   il neeed?




                                             END   OF   SURVEY


                               THNK YOU FOR YOUR PARTIPATIN

                        Pteae retrn this questionnaire in the endos envelop.



                                                                          -a us. GOVERNMENT   PRINTING OFFICE 199- 5-M3
                              APPENDIX 

                                   Collecg the Data
Drawig th Sample


To collect the data , we used a single stage cluster sample. Our universe included the
  084 counties in the United States who received Federal AFDC funds in 1988. Each
county constituted a cluster. After determing the size of each cluster based on the
total amount of Federal AFDC funds received in 1988 , we randomly selected 38
clusters , including 8 designated alternates , with probabilty proportional to size.

Once a county was selected for inclusion in the study, we contacted the State and the
county to determine the number of welfare offces in the county and the number of
possible respondents in those offices.

Using this information , we determined the counties where 100 percent of the workers
would be surveyed versus those counties which would be subsampled. We used the
following criteria to determine which counties should be subsampled.

       Counties with under 300 total workers or with only one offce were sampled
       the 100 percent level.

       All other counties were subsampled. These counties have more than one
       welfare offce within county/entity   boundaries and have over 300 workers.

To determine the number of workers we would survey from each of the six counties in
our subs ample , we first determined the number of respondents we wanted from our
subsampled counties. Based on estimates of response rates , we needed to survey
approximately 2400 respondents in our subsampled counties.     We obtained the
number of front- line workers , or possible respondents , in each county of our
subsample. We determined that we had a total of 7 312 possible respondents for the
entire subsample. For each county,      we calculated the approxiate number of
respondents we would need based on the following formula:

                              Yi = x/7 312 * 2 400

        = a particular county in the subsample
       Y = the number of front- line workers surveyed from a particular county
       X = the total possible respondents from a particular county

Based on the above calculations , we subsampled the following counties: Cook County,
Ilinois; Philadelphia County, Pennsylvania; and , Los Angeles , Kern , Riverside , San
Bernardino , and Santa Clara Counties of California. In all other counties , we sampled
at the 100 percent   level.
Crer to be a rend
The sampled population includes front- line workers and their immediate supervsors.
To qualify as a respondent ,   people had to meet the following profie.   Each
respondent must be:

       a worker involved with AFDC, including workers who split their time between
       AFDC and any other programs; or

       a Medicaid worker who also does AFDC work, or located in the same office       as
       AFDC workers. No Medicaid workers are included if they are located in a
       different physical location; or



       an immediate supervsor of the above workers.

Excluded from the sample were the following:

       Food Stamp workers who did only Food Stamp work; or

       any clerical staff or technicians; or

       any upper management except if they function as an immediate supervsor of
       the respondents as described above.



Metho for   diutg qutinnires to resnd
On December 3 , 1990,   we sent each welfare offce the appropriate number of
questionnaire packets , a cover letter and a script for the contact person to administer
the questionnaires. A script was prepared to ensure that each respondent receive
identical instructions for completing the questionnaire. Respondents self-administered
their questionnaires. To ensure confdentiality, each respondent received a
pre-addressed , postage- paid envelope to send the completed questionnaire to Russo
and Associates , the contractor responsible for compilng the data for analysis.

We received questionnaires throughout the first quarter of 1991. Out of the 3 861
questionnaires we sent out , we received 2 118 for a 55 percent response rate.
-----------------------------------------------------------------------------------------------------------------




Selecte coun           wi replacemts
         STATE                       County                               County-                      Urban
                                                                          State-ru                     Rural

         Californa                   Kern                                 County                       Urban
         California                  Los Angeles                          County                       Urban
         California                  Riverside                            County                       Urban
         California                  San Bernardino                       County                       Urban
         California                  Santa Clara                          County                       Urban
         Connecticut                 Litchfield                           Sta te                       Urban
         Georgia                     Chatham                              County                       Urban
         Georgia                     Clark                                County                       Urban
         Georgia                     Columbia                             County                       Urban
         llinois                     Cook                                 State                        Urban
         llinois                     Iroquois                             State                        Rural
         Iowa                        Clay                                 State                        Rural
         Kentucky                    Knox                                 State                        Rural
         Louisiana                   St.    James                         State                        Rural
         Maine                       Lincoln                              State                        Rural
         Maryland                    Kent                                 County                       Rural
         Minnesota                   Beltrami                             County                       Rural
         Minnesota                   St. Louis                            County                       Urban
         Missouri                    Scott                                State                        Rural
         New Jersey                  Hudson                               County                       Urban
         Ohio                        Franklin                             County                       Urban
         Ohio                        Medina                               County                       Urban
         Oklahoma                    Cotton                               State                        Rural
         Pennsylvania                Philadelphia                         State                        Urban
         Utah                        Cache                                State                        Rural
         Virginia                    Bristol City                         County                       Urban
         Virginia                    Virginia Beach City                  County                       Urban
         Washington                  King                                 State                        Urban
         Washington                  Pierce                               State                        Urban
         Wisconsin                   Wood                                 County                       Rural
  At the time of thi sUlVey, thes counties had not   implemented the JOBS program. However, they represnt .
percent of the total sample.

Non-  parttig State
Three States , New York, Michigan and Massachusetts refused to participate in our
survey. We used eight replacement counties to complete our sample and to
compensate for the States who chose not to participate. In spite of these
non- participating States e believe the survey results sufficiently represent the
universe of front- line workers , based on the number of respondents and the broad
geographic representation of the sample.
                               APPENDIX 

                                    Creatig Binar Varables


To analyze the data in the survey, we created binary variables.

       In questions 1- 24   regarding a respondent' s familarity with provisions of the Act
      we asked respondents:

       Plee resnd to
      famiri wi th follwig.
                            the     stte th follwig
                                        Use
                                            cilig th nuer tht
                                              by
                                                                     scale. "
                                                                                   represen your


      Very                             Somewhat                       Not           Not at al
     Famar           Famar             Famar                          Sure          Famar


      Respondents used this scale to rate their           knowledge of 21 specific provisions of
      the Act. We omitted question six from our analysis because the question was
      confusing. We also omitted questions 17 and 21 because they were not
      provisions of the Act and were included only as a check of respondents
      answers.

      When we analyzed this data , we created a binary variable for each question
      according to the following code:



              Know            (1)             response of 1 or 2 on the five point scale
                                              above

              Don t Know (0)                  response of 3 , 4 or 5 on the five point scale
                                              above

      Average Score: Using the scale above , when we report overall knowledge of
      respondents , we use an average score of the 21 Family Support Act provisions
      from page 1 of the survey. The average scores were coded in this manner:

              Know            (1)             an average response .c 2.5 on the five point
                                              scale above

              Don t Know (0)                  an average response
              = 2. 5 on the five
                                              point scale above




                                              C-1
For both of the questions below, respondents used the followig scale:

Greatl           Somewhat                           Somewhat            Greatl
Increas          Increa           Efec              Decea               Decrease


In questions 38- 41   on Client Self- Suffciency, we asked respondents:


su
Wht efect do you thi
          of your   cli?
                              th chi suport prvins wi hae on th self-



In questions 42- 48   on Client Self- Suffciency, we asked respondents:

How wi th foUowig part of the JOBS prgrm                     afect     cli self-su?'
Respondents used the scale above to rate whether 11 specific provisions of the
Act wil increase client self-sufficiency.

When we analyzed this data , we created a binary variable for each question
according to the following code:


       Increas Clent                          (1) = response of 1 or 2 on the five point
       Self-Sufciency                         scale above

       Not Increae                            (0) = response of 3 ,    4 or 5 on the five point
       Clent Self-Sufciency                   scale above

Average Score: When we report a respondent s opinion on how the Family
Support Act will irpprove client self-suffciency overall , we use an average score
of the 11 questions , 38- , on client self-suffciency. We coded the average
scores in this manner:

Increa Clent

Self-Sufciency         (1) = an average response            c: 2.   5 on the five point scale
                       above

Not Increase Clent
Self-Sufciency         (0) = an average response              = 2. 5 on the five point scale
                       above




                                              C-2
In questions 93- 110 ,   we asked respondents:

Plee compare th          foUowig welfare system;

                before th
                       Fami Support Act (at leas two years ago);
                whi th Fami Support Act is beig impleed; an
                two yea frm now.

Very   Goo Go                  Fai               Poor           Very Poor



Respondents used the scale above to rate the welfare system           in the following
areas:

         Providing adequate servces to clients

         Providing timely servces to clients

         Improving client self-suffciency

         Permtting you to help clients

         Not wasting the taxpayers ' money

         Improving your job satisfaction.

When we analyzed this data , we created a binary variable for each question
according to the followig code:

Favorable                (1) = response of 1 or 2 on the five point scale above
Not Favorable            (0) = response of 3 ,   4 or 5 on the five point scale above


Average Scores: When we report respondents ' opinion on how the welfare
system performed 2 years ago , we use an average score of the questions asking
respondents to rate areas of the welfare system ' 1Jefore the FS Act (at least two
years ago). " This includes questions 93 ,   96 , 99 ,   102 , 105 and 108.




                                      C-3
We coded the average scores in this manner:

         Favorable              (1) = an average response oe   2.5 on the five point scale
                                      above

         Not Favorable          (0) = an average response :: = 2. 5 on the five point scale
                                      above

         When we report respondents ' opinion on how the welfare system will perform 2
         years from now, we use an average score of the questions asking respondents to
         rate areas of the welfare system " 2 years from now. "   This includes questions
           , 98, 101 , 104 , 107 and 110.

         Favorable              (1) = an average response oe   2.5 on the five point scale
                                      above

         Not Favorable     . (0) = an average response :: = 2.5 on the five point scale
                                      above

Indpe Varible
When examining factors which may affect the responses to the         above questions ,   our
independent variables were:

Super:         This variable indicates whether a respondent is a supervsor or a worker.
               If a respondent answers question 260 " If you have ever been a
               supervsor give the number of years , in addition to questions for
               supervsors only, 173- 183 , we refer to that respondent as a " supervsor
               Otherwse we refer to a respondent as a " worker We cross-checked
               this method for determning who was a supervsor against questions 120
               132 , and 258.

               Supervsor              responded to questions 173- 183 and 260
               Worker                 all other respondents

               Using this method , 13. 1 percent of the respondents are supervsors and
               75. 9 percent of the respondents are workers.




                                              C - 4

Urban:   Ths variable indicates whether a respondent works in an urban office or
         a rural office. We entered the urban or rural designation based on
         Metropolitan Statistical Area data (MSAs)..

         According to the MSAs , we surveyed 59 urban offces and 13 rural
         offces. These offces provided us with 94 percent urban respondents and
         6 percent rural respondents.

         Urban                              respondent works in urban office based on MSAs
         Rural                              respondent works in rural offce based on MSAs

State:   This variable indicates whether a respondent works in a State where the
         IV-A program is administered by the State versus a State where the
         IV-A progr m is administered by each county.

         State                              respondent works in State-administered welfare
                                            office
         County                             respondent works in county-administered welfare
                                            offce

         Ten of the States we surveyed                   have State-administered IV- A   programs
         while nine States have county-administered                  IV   A programs. The

         respondents are fairly evenly distributed between the two tyes of
         programs with 56 percent working in State-administered programs and
         44 percent working in county-administered programs.

AFC:     We used this variable to distinguish between those respondents who
         spend over 50 percent of their time in the AFDC program and those
         who spend 50 percent or less time in AFDC. We created the variable
         based on responses to question 112 which asks what percentage of time
         a respondent spends on AFDC.

            50 AFDC                                   respondents who spend over 50 percent of
                                                      their time in AFDC
         c: =50 AFDC                                  respondents who spend 50 percent or less
                                                      time in AFDC

         Few respondents specialize in the AFDC program with 29 percent
         spending over 50 percent of their time in AFDC and 71 percent
         spending 50 percent or less of their time in AFDC.




                                                      C - 5

                            APPENDIX D

                   Analis of Respondent     Knowledge and Atttude

Knwlege Anlysi


We hypothesize that a respondent s knowledge of the Family Support Act is partially
dependent upon factors including: 1) whether the respondent is a worker or
supervsor , 2) whether the respondent works in an urban office versus a rural office , 3)
whether a respondent works in a State run welfare office versus a county run welfare
office , and 4) whether a respondent spends greater than 50 percent of their time in
AFDC versus spending less time in the AFDC program. To test the hypothesis , we
constructed a multivariate model to determine which of the above factors , if any, have
a significant relationship with each respondent s knowledge of the Act.

Constrtin of th Modl
For this analysis , we created a series of binary variables that characterize each
respondent. Table I lists the variables and the method for coding each of these
characteristics. The variable " knowledge " serves as our dependent variable in the
model.

                                         Table I

                           Variables Used in Logistic Model

       Knowledge                           1 = Knows about specific
                                               provision of Family Support Act
                                           o = Does not know about specific
                                               provision of Family Support Act

       Supervr                             1 = Supervsor
                                           o = Worker


        Urban                              1 = Urban office
                                           o = Rural office
        State                              1 = State-administered office
                                           o = county-administered office
        AFC                                1=       Spends   50% of time in AFDC
                                           o = Spends 
      = 50% of time in AFDC




                                           D - 1

                                                                              +..      p,




We used a linear logistic model to fit this data. Using this model , the probabilty of a
respondent knowing about specific provisions of the Act      equals a linear
combination of the independent variables in the logistic scale.                               This gives


                                      In(p      (l-p))=B o +B                       +BkXk'

where          is the coefficient to be estimated by the equation , X is the value of the
independent variable and 
          is the number of independent variables in the equation.

With this construction                                               or e
                             , the negative exponential of each coefficient

represents the estimated odds ratio of the effect due to the accompanying variable.
From the multivariate model , we can determne the adjusted effect of each variable on
a respondent s knowledge of a provision. The adjusted effect measures the strength of
the relationship between an independent variable and the dependent variable while
taking into account the effect of other independent variables in the equation.

Res of Anlysi
Table II gives the results of the analysis using the multivariate logistic model for an
average score of knowledge of the Act (appendix C describes the composite score of
knowledge. We conducted this analysis using the same independent variables for 21
questions on the Act provisions included in the questionnaire.                                The results are similar
to those reported here. We do not include the details of these models here , but
specific results of this analysis are available upon request.


                                                           Table n

     Pareter Estiates & Adjusted Odds Ratios for Overal Knowledge of Act
 Varable         Pareter          Stadad        Odds          95% C.
                             Estiate                          Eror                    Ratio         (lower upper)

Intercept                      6089                            2018                    .54

Supervor                     0.5755                             1316                  1.78           (1.37 2.30)
Urban                          0427                             1970                                 (0.   1.41)
State                          1606                             0968                                 (0. 1.03)
                               1956                             1056                  1.22           (0.   1.50)


Odds ratios greater than one indicate that the presence of the factor increases the
likelihood that a respondent is familar with the specific provisions of the Act , while
odds ratios less than one indicate that the presence of the factor reduces the




                                                              D-2
likelihood that a respondent is famiiar with the specific provisions of the Act. These
relationships are signifcant only when the confidence interval does not include one.
For example , the results show that supervsors are 1. 78 times more likely to report
that they are familar with the different provisions of the Act than workers.

In the example above , only the " supervsor " variable has a significant impact on a
respondent' s overall familarity with the Act after adjusting for the impact of the other
variables. Respondents who are supervsors are nearly twce as likely to be familar
with the different provisions of the Act as workers.

Att Anlysi
Using the multivariate logistic model described above, we analyzed respondents
attitude toward the Act. We designated " attitude " as the dependent variable. In this
model represents the probabilty that a respondent believes the Act will increase
client self-sufficiency. In addition, for this model knowledge " becomes an
     :pendent variable. The complete list of variables for the model are coded below.


       Atttude                             1=       Increase client self-suffciency
                                                    Does not Increase client self.
                                                    sufficiency

       Knowledge                           1=       Knows about specific provision of
                                                    Family Support Act
                                                    Does not know about specific
                                                    provision of Family Support Act

       Supervor                            1=       Supervsor
                                                    Worker

       Urban                               1=       Urban offce
                                                    Rural offce



       State                               1=       State-run office
                                                    county-run offce



                                           1=       Spends:; 50% of time in AFDC
                                                    Spends c: = 50% of time in AFDC




                                           D - 3

              -.                                         ( .
.




When including a " knowledge " variable , we used the knowledge question
corresponding to the specific provision of the Act named in each self-suffciency
question. For example ,  we wanted to examine factors which may affect a response to
question 48. This question asks respondents whether they think 12 months of
Medicaid extension after obtaining a job will increase client self-suffciency. The
independent variable called " knowledge " in the model would be the response to
question 24 , which asks how familar a person is with the provision of Medicaid after
obtaining a job.

Table III gives the results of the analysis for question 48. We repeated this model for
each of the eleven questions which ask about client self-suffciency, questions 38- 48.
The results are similar to those presented. We omit the detailed results here , but they
are available upon request.

                                        Table il


        Parameter Estiates and Adjusted     Odds Ratios for Respondent Atttude

Varable        Parameter      Stadad      Odds           95% C.
               Estiate        Eror        Ratio          (lower upper)
Intercept     - .4732         2758         1.61

Knowledge      1.3247         1332                       (2.     , 4. 88)
Supervor        0848          2039         1.09                  , 1.62)
Urban           3979          2631         1.49                  , 2.49)
State            1962         1382         1.22                  , 1.60)
                 1210         1485         1.13                  , 1.51)


The table shows that , of the variables we tested , only knowledge has a significant
correlation with a respondent's opinion on whether the Medicaid extension will
increase self-sufciency.




                                          D - 4

                   , pp.                                                                           , "




                                               APPENDIX E

                                                 Burout Inentory Analis
Initially, the Gilespie- Numerof Burnout Inventory (GNBI) was included in this survey
to determine whether burnout might bias respondents ' attitudes toward the Act.
When our analysis revealed that support for the Act was high (and burnout relatively
low), it was not necessary to pursue a relationship between respondent burnout and
attitude. During further analysis ,
                               we found an inverse correlation between respondent
knowledge and burnout. This correlation supports our conclusions about respondents
knowledge.

To estimate a level of burnout for respondents , we used a modified version of the
GNBI. In questions 270- 275 and 277- 282 , respondents rated how they feel about
their job for 12 items. They used a scale from 0 to 7 , where 0 represents " never" and
7 represents " always " on a continuum. Question 276 was deleted from our analysis
because we determined the question was ambiguous.

In our sample , Cronbach's coefficient of test reliabilty, alpha , was very high at . 93 on
a scale of 0 to 1. The alpha coefficient measures the internal consistency of the scale
or measures the likelihood that respondents repeating the test under similar conditions
would give similar answers.

Using the 12 items ,                we formed a composite burnout score by totaling the individual
scores. Respondents each received a score between 0 and 84. Eighty- four                                              represents
the highest score and the highest possible level of burnout.

Using the composite burnout score , we created a binary variable burnout"
coded the variable as follows:

             Bured Out                  (1) =              burnout score;: 42 ,        or , on the upper half of the
                                                           burnout scale

             Not Bured Out (0) =                           burnout score oe = 42 , or , on the lower half of the
                                                           burnout scale.




      8 see David Gilesie and Ria Numerof, "Bunut            Among   Health Serice Provid, Adminisation an   Policy   in Menl Health

VoL   18,   No.         161- 171 and Rita Numerof   an Joseph     Sell Superisory leadehip an jUbordiate bumout,      Acade of
Mana              t Joura VoL      No.  2,   439- 446.   for exples of its use.


                                                                     E-
    , " , "          , "




To identif factors which may affect whether a respondent is burned out , we
conducted a multivariate analysis similar to those described in appendix D. In this
case   burnout" is the dependent variable and    represents the probabilty that a
respondent is burned out. Independent variables for the equation include " supervsor
 urban state AFDC" , and an average score of " knowledge . Table I shows the
results of this analysis.



                                                   Table I

        Parameter Estiates and Adjusted                Odds Ratios for Respondent Burnout

Varable                         Pareter Stadad                  Odds       95% C. I.
                                Estiate         Eror            Ratio   (lower, upper)

Intercept                         6540          2140

Knowledge                         2377          1146                            99)
Supervor                          2826          1606                    ( .55 , 1.03)


Urban                             2248          2045                    ( .53 , 1.19)
State                             0969          109             1.11         , 1.36)
                                  0944          1189            1.10         , 1.39)




In this table , an odds ratio less than one indicates that the presence of a factor
decreases the likelihood of burnout. These relationships are significant only when the
confidence interval does not include one. Only a respondent s level of knowledge has
a significant correlation with burnout of an individual. Those who do not know about
the Act are much more likely to be burned out than those who know about provisions
of the Act.




                                                       E - 2

APPENDIX 

AGENCY   COMM




     F - 1

      anrAR TMENT OF HEALTH a. HUMAN SERVICES               Of of the Secretay
                                                            Wasinvton. DC. 20201

                                   MAR 3 0 !S92



TO:          Richard P. Kusserow
             Inspector General

FROM:        Assistant Secretary for
             Planning and Evaluation


SUBJECT :    Draft Inspection Report on Front-Line Workers
                                                         0 I 
 Z-2.D
                                            l-().5-
                                                    8q -



Thank you for sharing with us your draft report. Your study
finds that there is widepread support among front line-workers

for the provisions of the Family Support Act, even though their

knowledge of specific Act provisions is generally         low. It
                                                            would
have been helpful to get a better idea what the actual functions

of the respondents were. For example, some front-line workers
might be expected to provide clients with an orientation to the

JOBS program. Other front-line workers may be solely responsible

for income maintenance functions with the expectation that they

will refer their clients to JOBS and child support enforcement to

learn about these programs. The data do not tell us to what
extent respondents had any direct responsibility for JOBS and

child support enforcement. It is unclear whether respondents had

a sufficient level of knowledge about the Act for them to carry

out their jobs effectively. Nonetheless, we hope that since the

survey was conducted a year ago, as States have made further

progress in implementing the Family Support Act' s provisions, the

knowledge level of front-line workers about the Act' s provisions

will have increased.

Please keep us informed about all your studies related to the

Family Support Act and JOBS. I understand that your staff have
just completed a draft report on JOBS Skills Assessment practices

and we would appreciate receiving a copy for review. My            staff
would also like to be invited to any future briefings that your

staff provides about such \ studies . Notices of such briefings

should be directed to Jane Baird, Deputy Assistant Secretary for

Human Services POlicy, (245-2409). Thank you.




                              Martin H.   Gerry
..   .,..,
                                             ~~~
                    DEPARTMENT OF HEALTH &. HUMAN SERVICES

1'''10
                                                                   ADMINISTRATION FOR CHILDREN AND FAMILIE,
                                                                    Office of the Assistant Secretary;'suite =600

                                                                    370 L' Enfant Promenade, S.
                                                                   Washington, D. C. 20447




              DATE :      April 13,              1992

              TO:         Richard P. Kusserow
                          Inspector General

              FROM:       Jo Anne B. Barnhart           M I-/'
                           Assistant Secretary

                                for Children and        amilies
              SUBJECT:                                    e Family support Act of 1988:
                           What Do Front-Line Workers Know? What Do They Think?"
                           OIG Draft Report:



                           OEI-05-89-01220 -- COMMENTS


              Thank you for the opportunity to review this draft 

                                                                                      report. The
              comments and suggestions we made during the exit conference have

                                                                believe the

              all been incorporated into this draft report. We
              report clearly and effectively presents the findings of your

              survey.
                                                                               findings. We         are
              We must admit to having mixed views about the
              optimistic about the high expectations of front-line staff

              concerning the effects of the Family support Act over 

                                                                                           time.
              the same time, we are disappointed about the reported
              of program familiarity among front-line 

                                                                     staff.
                                                                     low past
                                                               Over the   level

                                                                              few
              years we have worked hard to promote the Family support Actsystem.
                                                                            as an

                                                                       efforts;
              important catalyst in changing the culture of the welfare

              Your study demonstrates that we need to continue these 

              obviously more work needs to be done in educating workers about

              the Act' s provisions and the potential of the welfare system to
              assist families in becoming self-sufficient.

                                                                 s early and

              We agree with your argument that front-line staff'

                                          ecipients can shape recipients'

               atti tudes about JOBS and child support programs. As an agency,
               ongoing contact with AFDC





               Act means changing welfare agencies                institutionally.
               we believe that successful implementation of the Familystaff
                                                                        support

                                                                             and
               clients alike need to understand that cash assistance is a

               temporary measure which supports families while they take steps

               to become economically self-sufficient.


               For certain methodological reasons, your study may overstate
                                                                      Also, the

                                                                            the

               problems with the knowledge level of welfare workers.

                                                                  The research
               timing of the study could be a mitigating factor.
               was conducted in the first quarter of calendar year 

                                                                          Among           1991.
                                                         re relatively new to

               the 19 states in the sample, 25 percent w
Page 2 - Richard P. Kusserow

the program: four states1990.
                         implemented          JOBS in October 1990, and a
fifth began JOBS in July       Also,          not all programs were
statewide.          Perhaps, there is a relationship between the start
date and level of knowledge and the extent of referral for JOBS

and child support 

                     ervices.        Thus, we would be interested in
knowing whether there is a plan to re-survey these or other staff

at some later time.


If you decide to conduct a re-survey, we would like the
 For
opportunity to discuss design changes with your 
      staff.
example, we wonder if there is a direct relationship between the

level of staff knowledge and the amount of time spent working on

AFDC. Chart 1 shows, consistently, that less time spent   in AFDC
                                                    However, we

is associated with less JOBS program familiarity. example, we
can I t tell much more from the data collected; for
cannot tell to what extent those with little familiarity of the

Family support Act were Medicaid workers rather than AFDC

workers.
Finally, we wonder if there is a possibility of your providing us

wi th further information or doing further analysis of the

existing data. First,  there seems to be a lot of data on the
                                             report.
                                               For example: a)
survey which are not discussed in the        (p. A-8); b) how

what specific training needs were identified
common is training for workers in areas like case management and

evaluation of clients; and c) how much do agencies rely on in­

house training versus other forms? Also, what are the specific
knowledge rates of the sub-categories of respondents in Chart 

Secondly, there seems to be more analysis possible on   the

                                                     knowledge,  and

relationships between worker education, attitudes,
                       example:  a) is the knowledge  level  higher

responsibilities. For
or lower for workers who spend the most time with
                                                         clients;
                                                              b) are
workers who spend a lot of time evaluating clients for 

                                                         education,
training and jobs particularly positive about the potential

                                                      between
effectiveness of JOBS; and (c) are there differences
college-educated workers. and others?
 It would be helpful to know if you looked at some of these

                                 nothing, or if you did not have

 questions, but the data showed                    depth.
 the opportunity to analyze the data in this much
 Addi tional analysis might be helpful; my staff is available to
 meet with your staff if you think additional work would be

 frui tful.




                                       F-4
Page 3 - Richard P. Kusserow


Following are some editorial comments.

Page i, third      under BACKGROUND, after Basic Skills and

                line

before (JOBS), insert "Training. " A similar point on page 1
under BACKGROUND.


Page 1, last paragraph says that the JOBS and child support

agency are separate. In some States, they are in the same

agency.
If you or your staff have questions or need additional

information, please do not hesitate to   call.
